   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
        FY 2008 AND FY 2007
      Federal Aviation Administration

       Report Number: QC-2009-008
      Date Issued: November 13, 2008
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of Audited               Date:    November 13, 2008
           Financial Statements for FY 2008 and FY 2007,
           Federal Aviation Administration
           Report Number: QC-2009-0008

  From:    Calvin L. Scovel III                                 Reply to
                                                                Attn. of:   JA-20
           Inspector General

    To:    The Secretary
           Acting Federal Aviation Administrator

           The audit of the Federal Aviation Administration’s (FAA) Financial Statements as
           of and for the years ended September 30, 2008, and September 30, 2007, was
           completed by KPMG LLP of Washington, D.C. (see Attachment). We performed
           a quality control review of the audit work to ensure that it complied with
           applicable standards. These standards include the Chief Financial Officers Act, as
           amended; Generally Accepted Government Auditing Standards; and Office of
           Management and Budget Bulletin 07-04, “Audit Requirements for Federal
           Financial Statements,” as amended.

           KPMG concluded that FAA’s consolidated financial statements presented fairly,
           in all material respects, the financial position of FAA as of September 30, 2008,
           and September 30, 2007, and its net costs, changes in net position, and budgetary
           resources, for the years then ended, in conformity with accounting principles
           generally accepted in the United States. KPMG reported two internal control
           significant deficiencies but no material weaknesses. The report did not identify
           any instances of noncompliance with laws and regulations.

           FAA should be commended for corrections leading to the downgrading of the
           material weakness associated with its accounting for Property, Plant, and
           Equipment, including the Construction in Progress account, to a significant
           deficiency. This material weakness was reported in the last three consecutive
           years and resulted in a qualified audit opinion on FAA’s Fiscal Year 2006
           financial statements. Similarly, FAA slipped from an unqualified audit opinion to
           a qualified audit opinion in Fiscal Year 2000 due to deficiencies in this area.
                                                                               2


FAA must remain vigilant in sustaining good financial management operations
and continue improving its accounting for Property, Plant, and Equipment.

Significant Deficiencies

   1. Timely Processing of Transactions for Property, Plant, and Equipment,
      including the Construction in Progress Account
   2. Information Technology Controls over FAA and Third-Party Systems and
      Applications

KPMG made 11 recommendations for corrective action, we agree with all and,
therefore, are making no additional recommendations. FAA concurred with the
significant deficiencies, agreed with the recommendations; and committed to
implement corrective actions by March 31, 2009. In accordance with DOT Order
8000.1C, the corrective actions taken in response to the recommendations are
subject to follow-up. In our opinion, the audit work performed by KPMG
complied with applicable standards.

We appreciate the cooperation and assistance of FAA, Office of Financial
Management, and KPMG representatives. If we can answer any questions, please
call me at (202) 366-1959; David Dobbs, Principal Assistant Inspector General for
Auditing and Evaluation, at (202) 366-1427; or Rebecca C. Leng, Assistant
Inspector General for Financial and Information Technology Audits, at
(202) 366-1407.

Attachment

                                        #
